No. 20-1111
IN THE SUPREME COURT OF THE UNITED STATES
INTERNATIONAL ASSOCIATION OF BRIDGE, STRUCTURAL,
ORNAMENTAL AND REINFORCING IRON WORKERS,
LOCAL 229, AFL-CIO, PETITIONER
v.
NATIONAL LABOR RELATIONS BOARD

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE NATIONAL LABOR RELATIONS BOARD IN OPPOSITION, via
e-mail and first-class mail, postage prepaid, this 14TH day of April, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5276
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on _April 14, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
April 14, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice,
in addition to mailing your brief via first-class mail, we would appreciate a fax or
email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor
General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms.
Goodwin=s phone number is (202) 514-2217 or 2218. Thank you for your
consideration of this request.

20-1111
INTERNATIONAL ASSOCIATION OF BRIDGE,
STRUCTURAL, ORNAMENTAL AND
REINIFORCING IRON WORKERS, LOCAL 229, AFLCIO
NATIONAL LABOR RELATIONS BOARD

DAVID A. ROSENFELD
WEINBERG ROGER & ROSENFELD
1375 55TH ST.
EMERYVILLE, CA 94608
510-337-1001
COURTNOTICES@UNIONCOUNSEL.NET

